<html>
<title> - SUMMIT OF THE AMERICAS: A REGIONAL STRATEGY FOR DEMOCRATIC GOVERNANCE AGAINST CORRUPTION IN THE HEMISPHERE</title>
<body><pre>[Senate Hearing 115-759]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-759
 
                  SUMMIT OF THE AMERICAS: A REGIONAL 
                  STRATEGY FOR DEMOCRATIC GOVERNANCE 
                  AGAINST CORRUPTION IN THE HEMISPHERE

=======================================================================

                                HEARING
                                
                               BEFORE THE
                               
                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES
                       
                                 OF THE
                                 
                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 10, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                U.S. GOVERNMENT PUBLISHING OFFICE 
 39-833 PDF              WASHINGTON : 2020        
        
        


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia





                               (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator From Florida.....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     4


Olson, Eric L., Deputy Director, Latin American Program, Wilson 
  Center, Washington, DC.........................................     6
    Prepared Statement...........................................     9


Farnsworth, Eric, Vice President, Council of the Americas, 
  Washington, DC.................................................    12
    Prepared Statement...........................................    13


                             (iii)        

  


 SUMMIT OF THE AMERICAS: A REGIONAL STRATEGY FOR DEMOCRATIC GOVERNANCE 
                  AGAINST CORRUPTION IN THE HEMISPHERE

                              ----------                              


                        TUESDAY, APRIL 10, 2018

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, Cardin, 
Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The hearing of the Subcommittee on Western 
Hemisphere, Transnational Crime, Civilian Security, Democracy, 
Human Rights, and Global Women's Issues will come to order. The 
title of the hearing is, `` Summit of the Americas: A Regional 
Strategy for Democratic Governance Against Corruption in the 
Hemisphere.''
    We are going to have one nongovernmental panel testifying 
today with the following witnesses: Mr. Eric Farnsworth, who is 
the Vice President of the Council of the Americas, and Mr. Eric 
Olson, who is the Deputy Director of the Latin American Program 
at the Wilson Center. And I want to thank both of them for 
being here today.
    Both the ranking member, Senator Cardin, and I agree that 
this is a hearing that is timely, and it comes at a critical 
moment for the region. This week, the Eighth Summit of the 
Americas will be held in Lima, Peru. The President was 
scheduled to attend. It has now been announced that, because of 
events in Syria and the U.S. response, he will not be 
attending, but the Vice President will be attending in his 
stead. And his attendance at the highest levels of the American 
government, with the Vice President attending, is an 
opportunity to demonstrate this administration's continued 
commitment to the region.
    The theme of the summit is anticorruption in the 
hemisphere. At the summit, it is my hope that the Vice 
President will build on this theme by promoting and showing the 
willingness of the United States to help our allies in the 
region build the capacity for good government practices.
    In addition, I also hope the Vice President will outline 
for our neighbors his commitment to actively partner with our 
regional partners on three important initiatives: regional 
security partnerships to take on transnational criminal 
networks; ensuring the fair treatment of U.S. businesses and 
firms in the region; and promoting the United States as a 
partner of choice over external state actors like China and 
Russia, who actively engage in unfair and predatory business 
practices in the region and around the world.
    But there is little doubt that the situation in Venezuela 
will and should be the dominant issue at this Eighth Summit of 
the Americas. Venezuela, under the regime of Nicolas Maduro, as 
well as his cadre of other corrupt officials, has 
systematically dismantled the institutions of democracy in 
Venezuela. He created a fraudulent Constituent Assembly made up 
of loyalists to supersede the legitimately elected National 
Assembly.
    Instead of providing food and medicine for his people, he 
has purchased Chinese-made antiriot vehicles and equipment for 
the National Guard to use to suppress protesters. He has 
enabled and encouraged the rise of pro-government gangs known 
as colectivos to repress protests through murder and to 
intimidate voters on election days.
    He has weaponized food. Venezuelans are required to provide 
government-issued identification to buy food or to receive 
government-issued food and medicine. Maduro uses these 
identifications to reward supporters with access to food and 
medicine, and to punish and intimidate opponents and their 
families by denying them food and medicine.
    He has used corruption as a weapon by rewarding loyal 
senior military officers with lucrative corruption 
opportunities, putting them in charge of the national oil 
company and of the distribution of critical consumer goods, 
which they can then resell on the black market or take for 
themselves.
    He has used his neighbors in Colombia and increasingly 
Brazil as a relief valve by allowing over 50,000 Venezuelans a 
day to cross borders to buy food that is unavailable in 
Venezuela.
    And just like his mentors in the Castro regime--they have 
done this since 1959--he has used migration as a weapon. Since 
2014, over 2 million Venezuelans, the vast majority of them 
opponents of the Maduro regime, have abandoned Venezuela.
    This well-orchestrated strategy to replace Venezuela's 
democracy with a dictatorship has all occurred under the 
guidance of his puppet-masters in Havana. It is both ironic and 
lamentable that a summit which is supposed to be a gathering of 
the democratic nations of the region has invited the Cuban 
dictatorship, which has authored the Venezuelan tragedy and the 
Cuban one before it, and a country which harbors fugitives of 
American justice, including the killer of a New Jersey police 
officer, and invites them to be a participant in all of this.
    However, it is promising that the summit's host country, 
Peru, has rescinded the invitation to Maduro to participate in 
this year's event.
    I encourage the Vice President to outline several 
initiatives to promote the restoration of democracy in 
Venezuela and to end the suffering of the Venezuelan people. 
The ranking member and I have worked on a couple of these 
already in a bill that we hope we can get passed on 
humanitarian aid.
    The first is I urge him to announce that the United States 
is prepared to make an immediate and substantial contribution 
to a regional and international effort to provide food, 
medicine, and other humanitarian assistance to the people of 
Venezuela right now, so long as that aid is distributed by 
credible nongovernment organizations, and not taken by the 
government to be used the way they are using food and medicine 
now.
    Second, it is my hope that the Vice President will announce 
that the United States is prepared to make a substantial 
contribution to a regional and international effort to help 
rebuild Venezuela once it has conducted free and fair 
elections, and the President has abolished the illegitimate 
Constituent Assembly and has restored the legitimate, elected 
National Assembly.
    And third, I hope the Vice President openly calls on the 
nations that are members of the Organization of American States 
to expel the undemocratic Maduro regime from the OAS, a 
collection of democracies.
    Venezuela and Cuba are not the only threats to democracy in 
the hemisphere. Corruption is as much a threat to democracy as 
any single government, and there is no nation-state that 
contributes more to corruption in this region than the 
Government of China.
    The Chinese Government is using bribery as a way of gaining 
contracts in the region and as a way of gaining political 
leverage to force nations to support their agenda, such as 
cutting off relations with Taiwan, and also as a way of 
creating an unfair playing field for American companies who 
seek to do work in the region.
    I urge the Vice President to make it clear that this is 
unacceptable and that it will be a priority of this 
administration to aggressively confront the corrupt practices 
of the Chinese Government and Chinese-controlled firms in our 
hemisphere.
    In addition, the summit also provides an opportunity to 
demonstrate that America intends to be not just a good neighbor 
but a reliable ally and partner with our friends in this 
region. As evidence of this, I urge the Vice President to 
recommit our support for the Alliance for Prosperity with 
Honduras, Guatemala, and El Salvador; to recommit support for 
our trade and security cooperation with our allies in Colombia; 
and to demonstrate the importance of our vital regional 
partners in Brazil, a nation that has much to offer as a 
regional power and to the world by announcing the permanent 
suspension of tariffs on Brazilian steel and aluminum.
    Since January of 2017, I believe this administration has 
made the Western Hemisphere a priority. Vice President Pence 
has already traveled to the region last year. He will return 
now for the summit. Earlier this year, both the previous 
Secretary of State and the Ambassador to the United Nations 
traveled to the region. As has been documented, the President 
made adjustments to our policy toward Cuba, and this President 
has demonstrated a firm and steadfast commitment to democracy 
in Venezuela through a series of sanctions against the Maduro 
regime that have been calculated, well-targeted, and measured, 
and that have been done in conjunction with our allies in the 
region in what I think has been an unprecedented regional 
response. We have not seen this in decades in our part of the 
world. And I think this visit by the Vice President to the 
summit also shows our strong commitment to the region.
    This weekend, the Trump administration has an opportunity 
to demonstrate that its decision to make 2018 the year of the 
Western Hemisphere are not just words but rather words that are 
backed up with real actions. This is what I hope they will do, 
and this is what I believe they will do.
    Now, I turn it over to the ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Chairman Rubio, first of all, thank you for 
not just convening this hearing, but your leadership on these 
issues. Our subject is a regional strategy for democratic 
governance over corruption in the hemisphere from the Summit of 
the Americas, and you have been one of the champions in the 
United States Senate on good governance and fighting 
corruption, particularly in our own hemisphere. So I thank you 
for your leadership, and I thank you for convening this 
hearing.
    You noted that President Trump has decided not to attend 
the summit due to the circumstances in Syria, and that is 
certainly understandable, but it is certainly disappointing. 
Clearly, and you and I talked about this, that the 
circumstances in Syria require U.S. leadership and response. 
And yes, I think most will be focused on what type of military 
action is taken, and I certainly hope the President is in 
consultation with our allies, and that he recognizes that the 
response needs to be judged and measured, so that we don't get 
engaged with U.S. troops into a civil war in Syria itself. We 
already have military operations in regard to ISIS, and we have 
to be very careful as to how we conduct that.
    But you and I are also in agreement that legislation that 
we authored on Syria accountability, which has passed through 
this committee and is on the floor of the United States Senate, 
that you need to have a coordinated strategy, including holding 
Mr. Assad responsible for his war crimes. And it is way past 
time to get that started. The most recent use of chemical 
weapons I think underscores the importance for us to initiate 
war crimes--against President Assad.
    I would also suggest that we work together on legislation 
that passed this committee a year ago, that has been enacted 
into law, that provides the President with additional sanctions 
that he can impose not just against Russia but Iran. Russia 
facilitates the Assad regime, and the proxy of the Iranian 
military is carrying out a lot of these campaigns. So it would 
be appropriate for the international community to say that we 
are not going to let President Assad have that type of support 
without consequences.
    So I thank you for your leadership on so many different 
issues.
    The Summit of the Americas does present us a unique 
opportunity to advance good governance here in our hemisphere. 
I thought it was interesting, as you pointed out, that the 
Peruvian leadership decided not to invite the President of 
Venezuela. That, to me, was a clear signal about the issues in 
Venezuela. So I noted that.
    But democratic governance is critically important in our 
hemisphere. We brag that our hemisphere has more democratic 
countries. The ratios are much higher here than anywhere around 
the world. So we are proud of our democratic institutions. It 
is embodied in the democratic charter of the OAS, and it is a 
fundamental principle.
    But corruption will erode democracy, make no mistake about 
it. It fuels conflict and poverty, and it causes the erosion of 
rule of law and democratic institutions. I think it is probably 
our greatest threat in this hemisphere, the rise of corruption.
    I think it is more challenging today, Mr. Chairman, I need 
to admit, because U.S. leadership is critically important, but 
you look at the respect for the U.S. leadership today on this 
issue, and it raises major questions. President Trump's 
approval rate in our hemisphere is 16 percent among our other 
countries. There are many reasons for that. I am sure his 
immigration policies are certainly adding to that low number. 
But it is also the fact that, when you look at the President, 
the way that he handles his own personal conflicts, and we are 
trying to deal with anticorruption legislation, you look at the 
manner in which he criticizes our independent judiciary, you 
look at what he has done on freedom of the media and 
criticizing the press, all of that are signs of concerns that 
we have in other countries where the U.S. leadership is going 
to be challenged because of what is happening here in our own 
country.
    I am pleased that Congress has taken action. We restored 
the State Department budget, which was a good thing for us to 
do, so that we can continue to be major players in our own 
hemisphere in dealing with anticorruption initiatives and good 
governance initiatives.
    I would suggest that the budget at 100 percent funding is 
still inadequate. We need to go beyond that. And I hope that 
this committee will have impact on the appropriators to make 
sure that there is adequate funding.
    The Global Magnitsky law was a major accomplishment on 
fighting corruption, and I was pleased to see that the 
administration has used that tool. They used it against the 
President of Nicaragua's Supreme Electoral Council, Roberto 
Rivas. I think that was appropriate use of a tool to make it 
clear that there will be penalties for those who participate in 
corruption.
    We have challenges, there is no question about it. The 
President of Peru was forced to resign recently because of 
corruption.
    Venezuela, Mr. Chairman, you are right on target there. If 
you are going to pick the one area that I hope is the prime 
focus of this summit, I would agree with you, it needs to be 
Venezuela.
    The summit presents us an opportunity. I support your 
statements in regard to U.S. participation in humanitarian 
relief. It is desperately needed. I support your call for free, 
fair, and open elections to restore Venezuela to democracy and 
call upon the OAS to invoke the charter, because Venezuela is 
not a democratic state today.
    So I am in total agreement with your strategies in regard 
to the summit focusing on Venezuela.
    There are certainly other problems. Central America has 
been plagued by corruption. I visited Central America 3 years 
ago and saw firsthand the challenges of that region.
    Clearly, Honduras needs attention. The flawed presidential 
elections we have commented about. The tragic death of Berta 
Caceres has still not been resolved. We know there is some 
progress being made, but, clearly, the government has not given 
that the proper attention.
    The legislature recently passed legislation protecting 
itself against investigations. That should have no place in our 
hemisphere. And the resignation of the OAS chief anticorruption 
official is certainly another matter for us to be concerned 
about.
    I want to mention El Salvador because I have been to El 
Salvador. I know the gang activities there. It is a real 
challenge for a democratic government to be able to deal with 
the network of gangs that control so much of the economy of 
that country.
    I really do believe that the administration's decision on 
TPS is going to make that even more challenging. I am going to 
question the witnesses as to whether the circumstances in El 
Salvador have significantly improved enough that those here on 
TPS status, it would be safe for them to return to their 
community. My observation is that, no, it has not changed.
    But there is a second factor here that I would welcome the 
views of our witnesses, and that is the return or potential 
return of those protected under TPS status, what impact does 
that have on El Salvador, and whether that could cause further 
destabilization of the government's efforts to deal with good 
governance in that country.
    The bottom line, this is an important hearing. There is 
much going on in our hemisphere. We are proud of our democratic 
states, but we know that we have significant challenges on the 
growth of corruption. What can we do, what can the Congress do, 
the Senate do, in order to help deal with these issues?
    I look forward to hearing from our witnesses.
    Senator Rubio. All right, thank you.
    So, Mr. Olson, are you ready?
    Mr. Olson. I am ready.
    Senator Rubio. All right.

  STATEMENT OF ERIC L. OLSON, DEPUTY DIRECTOR, LATIN AMERICAN 
             PROGRAM, WILSON CENTER, WASHINGTON, DC

    Mr. Olson. All right, good morning. Thank you, Chairman 
Rubio, Ranking Member Cardin, and members of the committee. I 
am glad to be here today to talk about this very important 
issue on behalf of the Woodrow Wilson Center.
    Given our limited time, let me make a couple main points.
    From my perspective, it is good news that the Summit of the 
Americas is proceeding despite the decision of President Trump 
not to go--we are glad that Vice President Pence will be 
attending--and despite the resignation of Peru's President 
Pedro Pablo Kuczynski last month on issues related to 
corruption. It is important that the region continue to focus 
and face up to the problems of corruption, and establishing 
common expectations across the region is one way to further 
that agenda.
    Nothing could be more urgent. Corruption kills. It drives 
migration. It undermines the rule of law, which, in turn, 
threatens human rights, creates insecurity, and erodes economic 
opportunity. In this context, criminal organizations take root 
and prosper. And the legitimacy of a state is called into 
question, leading to more authoritarian and illiberal 
governments. The United States' interests are undermined in the 
process.
    According to the Americas Barometer from the Latin American 
Public Opinion survey, support for democracy has decreased by 
almost 9 percentage points between 2014 and 2016 in the region. 
Their survey also found that, ``The average citizen is more 
likely to support extralegal actions--coups--to remove elected 
leaders from office.'' It is a worrisome trend.
    As you all have said, the situation in Venezuela is 
critical. The Chavez movement that once enjoyed broad popular 
support has systematically eroded democratic institutions; 
closed down most independent press; politicized the judiciary, 
an electoral institution; outlawed political parties, and 
harassed and jailed political opponents; and, ultimately, 
destroyed the National Assembly through a fraudulent and bogus 
election for a Constituent Assembly.
    In Central America, corruption has eroded public confidence 
in most institutions.
    In El Salvador, several former Presidents have been under 
investigation for corruption, with one essentially fleeing the 
country and seeking asylum in Nicaragua.
    In Honduras, the government-appointed police purge 
commission has dismissed nearly half of the police force for 
allegations of corruption and failure to meet minimum 
standards.
    And in Guatemala, there is an ongoing attempt to undermine 
the independence of the attorney general's office and pass new 
laws to guarantee congressional impunity for corruption.
    In fairness, the news is not all bad. Brazil, especially 
its judicial institutions, has taken the lead in investigating 
high-level government corruption, most notably in the Odebrecht 
and the Lava Jato cases. These cases have tentacles and have 
led to convictions in other countries, including the 
resignation of President Kuczynski.
    Chile, too, has implemented important reforms known as the 
integrity agenda, setting ethical standards for legislative and 
executive branches.
    Interestingly, Guatemala and Honduras are the only 
countries in the world to experiment with multilateral 
mechanisms designed to accompany each country's chief 
prosecutors. In Guatemala, the United Nations mechanism known 
as the CICIG has carried out far-reaching investigations with 
the attorney general, leading to the downfall of a sitting 
President and Vice President.
    Honduras has agreed to a similar mechanism with the 
Organization of American States, known as the MACCIH. Just in 
the last couple months, the MACCIH and the country's attorney 
general's office pressed serious charges against a former first 
lady, several members of the Honduran legislature, and one of 
the alleged masterminds behind the murder of Berta Caceres.
    But despite these successes, elites in both countries have 
struck back in various ways by passing laws that shield 
politicians from investigation or threatened the functioning of 
the CICIG, the MACCIH, and attorneys general.
    Thankfully, the United States in both the Obama and Trump 
administration have continued strong bipartisan support for 
innovative mechanisms like the CICIG and MACCIH. Maintaining 
this support is essential, as long as the governments, and 
especially their congresses, in both countries continue full 
cooperation with CICIG and MACCIH.
    Let me just say, in conclusion, a little bit about U.S. 
policy. Promoting rule of law, strengthening democratic 
governance, and fighting corruption have been central to U.S. 
foreign policy for decades. Yet, despite these good intentions 
and hundreds of millions of dollars spent on rule of law 
programming, there is little evidence that these efforts have 
succeeded.
    This is the conclusion of a far-reaching study entitled, 
``Frontier Justice: The New Environment for U.S. Rule of Law 
Assistance,'' conducted by two former State Department 
officials, Ambassador Donald Planty and Mr. Robert Perito. We 
plan to present the report publicly for the first time at the 
Wilson Center in May, but let me just summarize quickly some of 
their conclusions.
    There is no shared or consensus definition within the U.S. 
Government about what rule of law is, how to promote it, and 
what should be done. There is no unified rule of law policy, 
despite the importance attached to it, in U.S. foreign policy. 
And this applies across the globe, not just in Latin America.
    There is no central or coordinated repository of expertise 
or knowledge about rule of law in the U.S. Government. And 
there is no overall coordinator, somebody in charge of 
promoting a policy of rule of law in the U.S. Government.
    All of this leads to divergent views, strategies, and 
programming that, at times, are contradictory in purpose and 
execution, leading to great confusion on the part of recipient 
countries, and undermines U.S. objectives.
    I think, in conclusion, since my time has expired, I would 
just make the following recommendations. The U.S. has an 
opportunity, and, in particular, the Congress, to promote 
reform and greater understanding of this issue in the U.S. 
Government. Congress should consider a series of hearings that 
assess the extent to which rule of law promotion in U.S. 
foreign policy has succeeded or failed over the last 40 years. 
Conclusions from these hearings should form the basis of new 
legislation that would establish consensus around rule of law 
policy for the U.S. Government and suggest new ways to organize 
American foreign policy, so it is consistently applied across 
the government.
    In short, the U.S. Congress should continue to fund 
programs to strengthen the independence of judiciaries, 
depoliticize attorneys general offices, and strengthen 
investigative capacities across-the-board.
    Thank you, and I appreciate the opportunity.
    [The prepared statement of Mr. Olson follows:]

                  Prepared Statement of Eric L. Olson

    Good morning, Chairman Rubio, Ranking Member Cardin, and Members of 
the Committee. Thank you for the opportunity to appear before you today 
on behalf of the Woodrow Wilson Center.
    As you may know, the Wilson Center was created by an act of 
Congress as our nation's living memorial to President Woodrow Wilson. 
In the words of Vice President Pence, the Wilson Center is ``an 
institution of independent research and open dialogue and actionable 
ideas, truly a bi-partisan stalwart here in Washington DC.''
    With that in mind, I offer the following thoughts and suggestions 
regarding the upcoming Summit of the Americas, and more specifically 
about the urgent need for a regional strategy to build democratic 
governance and weaken the grip of corruption in our hemisphere and 
around the world.
    Let me begin by stating unequivocally that the need for action on 
democratic governance, strengthening the rule of law, and the fight 
against corruption is as urgent today as ever. From Mexico to Brazil, 
Central America to Venezuela, the Andes, Southern Cone, and the 
Caribbean, democratic protections are being eroded, the rule of law is 
being challenged, and corruption is undermining security, human rights, 
and economic prosperity throughout the hemisphere. Each country is at a 
different stage in their development with some enjoying a modicum of 
success. Nevertheless, the challenge is daunting and, at times, 
discouraging when democratically elected presidents, congressional 
representatives, and ministers of state participate in corruption 
schemes, like the Odebrecht scandal, and act more like criminals than 
representatives of the people.
    It is ironic that the agenda previously agreed upon for the Summit 
of the Americas is about democratic governance and regional anti-
corruption efforts, and is being held this week in Peru, where former 
President Kuczynski was the latest and most visible casualty of the 
Odebrecht scandal. You have to give the region's leaders credit for not 
shying away from this discussion and agenda, despite the awkwardness 
for many, including the hosts. Furthermore, the region has largely 
stood together in denying a seat at the table to Venezuela, where 
democratic institutions have been systematically eroded and corruption 
runs rampant.
                       an historical perspective:
    The hoped for benefits of a transition from military and 
authoritarian rule in the region have been uneven at best, in too many 
cases hijacked by corruption and undemocratic practices. While there 
has been progress, it is undermined by cases of grand systemic 
corruption like those making headlines in Peru, Brazil, Mexico, and 
Guatemala, among others. Confronting these acts of corruption could 
ultimately contribute to a strengthening of democracy if countries and 
politicians take the right lessons, but in many cases corruption and 
the persistence of the un-rule-of-law have only served to weaken 
democracies.
    A quick review of regional attitudes about democratic governance 
and corruption provides some worrisome evidence. According to 
Vanderbilt University's Latin American Public Opinion Project (LAPOP) 
Americas Barometer 2016/2017, support for democracy and democratic 
institutions is declining.\1\ The report found ``support for democracy 
decreased by almost 9 percentage points between 2014 and 2016/17.'' The 
survey also found that ``the average citizen is more likely to support 
extralegal actions (i.e., coups) to remove elected leaders from 
office.''
    According to Transparency International's Corruption Perception 
Index 2017, the Americas region continues to receive low marks for 
corruption perceptions. Honduras fell 12 places to rank 135th out of 
180 countries, and Venezuela was the regional country with the highest 
perceptions of corruption and occupies the 169th place globally.
    According to the 2015 biennial national victimization survey 
(ENVIPE) in Mexico, just over 6 percent of all crimes are reported to 
authorities--meaning that roughly 94 percent go unreported. The two 
most common reasons given for not reporting crime are ``it's a waste of 
time'' (33%), and ``distrust in authorities (16.6%).
    Despite these dismal findings, not all of the news is bad.\2\ There 
have been important advances in some countries: Brazil and especially 
its judicial institutions have taken the lead by investigating 
government corruption. While not yet complete, they have held very 
senior government officials and powerful business interests 
accountable. These investigations have contributed to cases and trials 
across the region as the tentacles of the Odebrecht case have slowly 
become visible.
    Chile faced a number of scandals early in President Michelle 
Bachelet's second term, so she appointed a ``Presidential Advisory 
Council on Conflict of Interest, Influence Peddling, and Corruption,'' 
led by Eduardo Engel, President of Espacio Publico, a leading Chilean 
think tank. In April 2015, the Council made a series of 
recommendations, many of which have been enacted into law as part of an 
``integrity agenda'' embraced by the executive and legislative 
branches.
    Sadly, these types of experiences are the exception and not the 
rule. Significant problems in democratic governance, rule of law, and 
grand corruption exist in many areas, but especially Venezuela, Mexico, 
and Central America.
    In Venezuela, a government that once enjoyed broad popular support, 
won relatively free elections, and had independent democratic 
institutions systematically eroded these same institutions. The 
Venezuelan government has closed down most independent press, 
politicized the judiciary and electoral institutions, outlawed 
political parties, harassed and jailed political opponents, and 
ultimately destroyed the National Assembly through fraudulent elections 
for a ``constituent assembly.'' In this environment, there are no 
remaining checks and balances on the regime and corruption is 
widespread--the very scourge that Hugo Chavez was originally elected to 
address.
    Mexico is a mixed bag. Important efforts to transform a corrupt and 
inefficient criminal justice system have been underway since 2008 with 
strong support from two Mexican presidents and two U.S. 
administrations. However, the process has been slow with multiple 
setbacks, and complaints about criminals taking advantage of weak and 
inexperienced police and prosecutors have abounded.
    In addition, there have been major corruption scandals involving 
federal authorities and a dozen current and former governors; 
escalating homicides that set a record last year; and horrific human 
rights problems--such as the disappearance of 43 students from a rural 
normal school followed by a botched criminal investigation. As a 
result, Mexico's July 1 presidential election is a referendum on the 
government's record on corruption, rule of law, and security.
    In addition, Central America, especially the Northern Triangle 
Countries of El Salvador, Guatemala, and Honduras, continue to struggle 
with these issues. In El Salvador, several former presidents have been 
under investigation for corruption with one essentially fleeing the 
country and seeking asylum in neighboring Nicaragua. In Honduras, the 
government-appointed police purge commission has dismissed nearly half 
of the police force for allegations of corruption or failure to meet 
minimum standards. In addition, in Guatemala, there is an ongoing 
attempt to undermine the independence of the Attorney General's office 
and pass new laws to guarantee congressional impunity for corruption.
    Interestingly, Guatemala and Honduras are the only countries in the 
world to also experiment with unique and innovative approaches to 
fighting impunity and corruption through multilateral mechanisms 
designed to accompany each country's chief prosecutors. In Guatemala, 
the United Nations mechanism known as CICIG-- the International 
Commission Against Impunity in Guatemala--has carried out far-reaching 
investigations, alongside the Attorney General's office, leading to 
prosecutions against many political and business leaders. In one 
instance, the investigation actually brought down a sitting president 
and vice-president, unprecedented in the country and much of the 
region.
    Honduras has also agreed to a roughly comparable mechanism with the 
Organization of American States--the Support Mechanism to Confront 
Corruption and Impunity in Honduras (MACCIH). As with the CICIG in 
Guatemala, the goal is to use the political independence and expertise 
of international judges and prosecutors to assist a weakened 
Prosecutor's office and judiciary to carry out sensitive investigations 
into powerful political and business interests. Just in the last couple 
of months the MACCIH and the country's Attorney General's office were 
able to bring important criminal charges against a former first lady, 
several members of the Honduran legislature, and one of the alleged 
masterminds behind the murder of Bertha Caceres, an internationally 
recognized indigenous rights and environmental activist.
    Despite successes by both CICIG and MACCIH, and Attorneys General 
in both countries, elites have struck back in various ways by passing 
laws that shield politicians from investigation, or threaten the 
functioning of both institutions.
                              u.s. policy:
    Thankfully, the United States Congress and both the Obama and Trump 
Administrations have continued strong support for the CICIG in 
Guatemala and MACCIH in Honduras. Continuing this political and 
financial support is essential as long as the governments, and 
especially the Congresses in both countries, continue to cooperate with 
CICIG and MACCIH in good faith and do not continue to block 
investigations through nefarious laws and political maneuvers.
    Promoting rule of law, strengthening democratic governance, and 
fighting corruption have been central to U.S. foreign policy for 
decades. The rule of law is the super-structure on which democracy is 
built. Yet, despite these good intentions and hundreds of millions 
spent on rule of law programming, there is little evidence that these 
efforts have succeeded.
    This is the conclusion of a far-reaching study entitled ``Frontier 
Justice: A New Approach for U.S. Rule of Law Assistance,'' conducted by 
two former State Department officials, Ambassador Donald Planty and Mr. 
Robert Perito. They look not only at what has undermined and hampered 
U.S. rule of law programming, but also outlined a series of steps to 
address these problems. We plan to present this report publically for 
the first time at the Wilson Center in May, and I hope it can serve as 
the basis of a longer and deeper conversation about what needs to 
change in U.S. policy to make rule of law promotion and anti-corruption 
efforts more effective. For now, let me just provide you with a teaser 
from their study.
    Among the authors' major findings:

  <bullet> There is no shared or consensus definition within the U.S. 
        government about what ``rule of law'' promotion is or should 
        be;

  <bullet> There is no unified ``rule of law'' policy despite the 
        importance attached to the principle in U.S. foreign policy;

  <bullet> There is no central or coordinated repository of expertise 
        or knowledge about rule of law within the Federal Government; 
        and

  <bullet> There is no overall coordinator of rule of law policy or 
        programming within the government.

    All this leads to divergent views, strategies, and programming to 
promote rule of law and, at times, these are even contradictory in 
purpose and execution leading to great confusion on the part of 
recipient countries.
    Finally, the United States often seeks to promote rule of law when 
there is no real political will or capacity on the part of partner 
nations to take the necessary and difficult steps to promote it. Take, 
for instance, the issue of an independent judiciary and prosecutors. 
Many countries are willing to receive training for judges and 
prosecutors, engage in exchange programs, and upgrade court 
infrastructure and technology. However, the legal and political steps 
that would create a truly independent attorney general, one outside the 
political control of a governing political party, is much more 
difficult. Clearly, this is not happening and unlikely to happen in 
Venezuela. In Brazil, prosecutors and judges have acted surprisingly 
independently from the political elite of the country. In addition, 
these are critical issues in Guatemala and Honduras, where selection 
processes for new Attorneys General are already underway.\3\ If the 
selection process goes well, we can expect democratic governance to 
improve and the battle against corruption to continue. If not, then the 
cycle of corruption, impunity, and weakened democracy could start anew.
                     policy options for the future:
    Given this landscape, I would recommend the following for 
consideration by the Committee:

    1) Congress should consider a series of hearings that assess the 
extent to which rule of law promotion in U.S. foreign policy has 
succeeded or failed over the last 40 years.

    2) Conclusions from these hearings should form the basis of new 
legislation that would establish a consensus rule of law policy for the 
U.S. Government, and suggest new ways to organize American foreign 
policy so it is consistently applied across the government.

    3) In the short term, the U.S. Congress should continue to fund 
programs to strengthen the independence of judiciaries, depoliticize 
attorney general's offices, and strengthen investigative capacity 
across the board.

    4) Additionally, support for independent, civil society-based 
mechanisms of oversight and accountability is essential. Independent 
journalism and academic and non-governmental organizations devoted to 
greater transparency in government can be invaluable tools in the fight 
against corruption.

    5) Finally, Congress should continue its strong support for the 
anti-corruption and anti-impunity lead by the U.N. Commission (CICIG) 
in Guatemala and the OAS Mission (MACCIH) in Honduras.

    Thank you, and I am happy to take your questions.

----------------
Notes

    \1\ The Political Culture of Democracy in the Americas, 2016/17: A 
Comparative Study of Democracy and Governance.
    \2\ The Wilson Center's Latin American Program celebrated its 40th 
Anniversary in 2017 with a conference devoted to analyzing the 
challenges of corruption to democracy in the region, and the 
opportunities for overcoming it. A forthcoming publication based on the 
conference will be available soon. Video from the conference can be 
found here: https://www.wilsoncenter.org/event/latin-americas-domestic-
and-international-challenges.
    \3\ For background on the selection process for Guatemala's next 
Attorney General see: ``Selecting Guatemala's next Attorney General: 
What's at Stake?'' https://www.wilsoncenter.org/event/selecting-
guatemalas-next-attorney-general-whats-stake

    Senator Rubio. Thank you.
    Mr. Farnsworth.

 STATEMENT OF ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF THE 
                    AMERICAS, WASHINGTON, DC

    Mr. Farnsworth. Thank you, Mr. Chairman. Good morning to 
you, Mr. Ranking Member, members. Thank you for the opportunity 
to testify again before you on such an important and timely 
topic.
    Let me thank you upfront for your leadership on the 
hemispheric agenda, but, in particular, your meaningful and 
bipartisan leadership on efforts to alleviate the growing 
humanitarian crisis in Venezuela and to help restore that 
nation to the democratic path. You continue to provide a real 
beacon to the Venezuelan people for a better future, and we 
acknowledge that, and we thank you for it.
    This hearing could not come at a more important time in 
hemispheric relations, just days before the next the Summit of 
the Americas in Lima, Peru. The White House has just indicated 
that Vice President Pence will be representing the United 
States.
    Hopefully, the United States, Mexico, and Canada will soon 
be able to announce concrete progress toward completion of the 
ongoing NAFTA renegotiations. More broadly, the region will be 
looking for signals from the United States delegation as to the 
administration's regional priorities, and perhaps to dispel 
certain misperceptions as well.
    With a number of critically important regional elections 
scheduled this year, including Brazil, Colombia, Mexico, 
Paraguay, and others, as well as the election charade that 
Venezuela seems intent on conducting in May, this is a critical 
year in the Americas. The summit in Lima offers an important 
forum to reaffirm the democracy agenda and to position the 
United States as the preferred partner in regional affairs. But 
we have to have a meaningful, positive agenda of cooperation in 
order to do so.
    The summit itself is not without its difficulties. Just 
prior to hosting the summit, Peru's President resigned at the 
end of March over corruption allegations--ironic, of course, 
given the anticorruption theme of this summit. And several 
other leaders plan to skip the meeting altogether, as we have 
discussed. Meanwhile, those leaders who do plan to attend will 
be hard-pressed, perhaps, to deliver more than anodyne results 
around the official agenda, which focuses on anticorruption.
    Corruption as an issue has been condemned numerous times in 
regional fora, including at the very first Summit of the 
Americas in Miami in 1994--I was privileged to attend and 
participate in that--and every Summit of the Americas since.
    Still, corruption continues to spread to the point where a 
number of outsider, antiestablishment candidates from both the 
left and right may be ushered into high political office this 
year by voters who are just sick and tired of corruption.
    The issues are real. They are significant. Certainly, more 
can be done and must be. The implementation of previous 
commitments is mixed, at best.
    The Summit of the Americas was originally conceived to 
support new democracies emerging from the Cold War into a 
unipolar world where economic integration was a strategic 
matter and where collective efforts could be applied by 
consensus to addressing regional issues.
    The world has changed since those optimistic days, but the 
summits have remained a consensus-based forum. This means 
progress on the most pressing regional issues can be difficult 
in the summit context. The divergent political priorities of 
nations at the table makes consensus unlikely, if not 
impossible.
    To build momentum and relevance for future summit 
commitments, leaders should move from consensus, perhaps, to a 
pathfinder approach. Those nations that can make progress on 
various issues and choose to do so should not be prevented by 
others unwilling to take similar steps, unwilling to sign on to 
commitments in the summit context.
    Alternatively, the summit could move from a grouping of 
nations who meet together as an accident of geography to a 
grouping of nations who meet together because they seek to make 
progress on the issues. If nations are disruptive or 
rejectionist or govern undemocratically, their participation in 
summits should be suspended. Indeed, participation should be 
limited to governments that promote democratic practices, as 
laid out in the Inter-American Democratic Charter signed on 
September 11, 2001, also in Lima, Peru.
    Venezuela is a case in point. We have already talked about 
that to some extent. The nation is in crisis. The government's 
misguided efforts since 1999 to establish a new socialism for 
the 21st century has predictably wrecked the economy and 
destroyed democracy. Social indicators have deteriorated to the 
point where Venezuela's global peers are mostly desperate, war-
torn nations, such as Syria and Yemen.
    This is not a self-contained crisis visited upon 
Venezuelans alone. Migration flows, drug trafficking, and 
cooperation with Russia to undermine regional democracies are 
also directly impacting Venezuela's neighbors. These are 
precisely the difficult issues that summits should seek to 
address. So we urge leaders, and we join with this 
subcommittee, to agree on further steps they can take to 
restore the democratic path while laying the groundwork for 
economic recovery in Venezuela.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Farnsworth follows:]

                 Prepared Statement of Eric Farnsworth

    Good morning, Mr. Chairman, Mr. Ranking Member, and Members. Thank 
you for the opportunity to testify again before you on such a timely 
and important topic.
    This hearing could not come at a more important period in 
hemispheric relations, just days before the next Summit of the Americas 
in Lima, Peru. The White House has indicated that President Trump will 
attend, his first visit to the region as president, before traveling 
onward to Colombia. Though he has already met a number of his 
hemispheric counterparts, this will be his first opportunity to present 
a vision of U.S. engagement with the region based on areas of common 
interest and values. Hopefully by then the United States, Mexico, and 
Canada will be able to announce concrete progress toward completion of 
the ongoing NAFTA renegotiations. More broadly, the region will be 
looking for signals from the U.S. delegation as to the President's 
regional priorities and to dispel certain misperceptions.
                         a region in transition
    With a number of critically-important regional elections scheduled 
this year, including Brazil, Colombia, Mexico, and Paraguay, as well as 
the election charade that Venezuela seems intent on conducting on Cuban 
Independence Day in May, this is a critical year in the Americas that 
may determine the region's direction. It comes as both Russian and 
Chinese leaders are consolidating and strengthening their respective 
internal positions and pursuing more aggressive policies toward Western 
democracies and their interests, including those in the Western 
Hemisphere. Along with allegations of stepped-up Russian meddling in 
elections across Latin America and the Caribbean, and also China's 
increasing overlay of a strategic agenda on top of pre-existing trade 
and investment activities, the region is now at a crossroads. The 
Summit in Lima offers an important forum to reaffirm the regional 
democracy agenda and to position the United States as the preferred 
partner in regional affairs. But we have to have a meaningful, positive 
agenda of cooperation in order to do so.
                   the summit: purpose and prospects
    Of course, the Summit itself is not without its difficulties. Just 
prior to hosting the Summit, Peru's President resigned at the end of 
March over corruption allegations--ironic given the anti-corruption 
theme of the Summit--and several other leaders plan to skip the meeting 
altogether including, perhaps, the President of Latin America's largest 
nation, Brazil. Meanwhile, those leaders who do plan to attend will be 
hard pressed to deliver anything but anodyne results. Corruption as an 
issue has already been condemned numerous times in regional fora, 
including at the very first Summit of the Americas in Miami in 1994 and 
every Summit since. Still, corruption continues to spread to the point 
where a number of outsider, anti-establishment candidates from both the 
left and the right may be ushered into high political office this year 
by voters sickened by corruption. The issues are real, and they are 
significant, hurting economies and reducing confidence in democratic 
governance. It is a major regional issue that needs to be addressed. 
Certainly, more can be done, and must be. Implementation of previous 
Summit commitments is mixed, at best.
    As well, there is also the challenge of unintended consequences. 
Most nations don't have a Foreign Corrupt Practices Act or equivalent; 
what is illegal under U.S. law may not be elsewhere. Most don't have 
the same jurisprudence or social mores as the United States. The issue 
of enforceability, or even definition, is complicated. More to the 
point, public cynicism increases, potentially undermining democracy, 
when leaders sign on to conventions and agreements they have no 
intention of upholding or of which they may even already be in breach, 
as they have at previous Summits. Of greater concern, the anti-
corruption agenda, in the wrong hands, can actually give license to 
officials who, for political purposes, would weaponize it to undermine 
or eliminate political rivals. Arguably, that scenario is precisely 
what just occurred in Peru itself.
    The Summit of the Americas was originally conceived as a way to 
support new democracies emerging from the Cold War into a unipolar 
world where economic integration was a strategic matter and where 
collective efforts could be applied by consensus to addressing regional 
issues. The world has dramatically changed since those optimistic days, 
but the Summits have remained a consensus-based forum. In practice, 
this means that progress on the most pressing regional issues is 
difficult in the Summit context; the divergent political priorities of 
nations at the table, now including Cuba, makes consensus unlikely if 
not impossible. To build momentum and relevance behind future Summit 
commitments, leaders should move from consensus to a ``pathfinder'' 
approach, as is used in the Asia-Pacific context in APEC. Those nations 
that can make progress on various issues, and choose to do so, should 
not be prevented by others who are unwilling to make similar 
commitments. Alternatively, the Summit itself could be re-engineered, 
from a grouping of nations who meet together as an accident of 
geography to a grouping of nations who meet together because they truly 
share similar values and interest and genuinely seek to make progress 
on the issues that affect them. As in the G7/G8 context with Russia, if 
nations are disruptive or rejectionist or govern in an undemocratic 
manner, their participation in the Summits should be suspended.
    Serious consideration should therefore be given as to the purpose 
of future Summits of the Americas. The world has changed dramatically 
since the first Summit in 1994, and, to remain relevant, future Summits 
should take that into account. Whether that means limiting 
participation to governments that promote democratic practices as 
delineated in the Inter-American Democratic Charter signed on September 
11, 2001, also in Lima, or changing the structure, or some other 
formulation, can all be discussed.
                        venezuela and the summit
    Venezuela is a case in point. The nation is in crisis. The 
government's misguided effort since 1999 to establish a new Socialism 
for the 21st Century has predictably wrecked the economy and destroyed 
democracy. The nation suffers from the world's worst hyperinflation, 
the healthcare system has collapsed, and one in five Venezuelan 
children suffers from malnutrition. Crime has spiked and Caracas is 
reportedly now the world's most dangerous city. Social indicators have 
deteriorated to the point where Venezuela's global peers are mostly 
desperate war-torn nations such as Syria and Yemen.
    But this is not a self-contained crisis, visited upon Venezuelans 
alone. It is also directly impacting Venezuela's neighbors. Seeking in 
some cases just to survive, hundreds of thousands of refugees continue 
to cross into Brazil and Colombia and the Caribbean, without jobs or 
food or obvious means of support, overburdening already-stretched 
resources. Colombia in particular has sought international assistance 
to address the crisis. Elsewhere, Venezuela's inability to control the 
illegal drug trade, with reports of senior officials actively involved, 
is undermining democratic institutions and social stability in transit 
nations such as those in the Northern Triangle of Central America, 
contributing to the flows of unaccompanied children and other migrants 
north to Mexico and the United States. And Venezuela is also reportedly 
working closely with Russia as a beachhead in the Americas from which 
to promote Spanish language information manipulation and cyber hacking 
and disruption to advance messages that undermine democracy, stability, 
and U.S. and friendly nation interests.
    These are precisely the issues that Summits of the Americas might 
address. Of course, with Cuba, Nicaragua, Bolivia and certain Caribbean 
client-states of Venezuela at the table, it is unrealistic to conclude 
that the leaders will reach consensus in Lima on a coordinated 
approach. Further limiting prospects for success, it should be 
anticipated that one or more of these nations will manufacture a 
surprise designed to disrupt the counter-Venezuela narrative and to put 
the United States and host nation Peru on the defensive, much as the 
late Hugo Chavez pulled political stunts at Summits in 2005 and 2009. 
Still, the Summit will gather many like-minded leaders who are 
committed to working together on a common agenda including concrete 
measures to address the Venezuela crisis, continuing a process intended 
to restore the democratic path to that troubled nation while laying the 
groundwork for an economic recovery plan that can be implemented at the 
appropriate time. Such actions are to be applauded.
    Thank you again for the opportunity to testify before you today. I 
look forward to your questions.

    Senator Rubio. Thank you.
    I am just going to begin with a couple quick questions, and 
then turn it over to the ranking member.
    Just on the point of the prosecutions, talking about 
Brazil, Peru, other places, obviously, we would prefer there 
not be corruption, but the alternative to no prosecutions is 
impunity. In essence, there was a time not long ago, and there 
are countries in the region like Venezuela and other parts of 
the world, where corruption is rampant. Everybody knows it, but 
there is never any prosecutions or accountability.
    So in some ways, while we are not happy about prosecutions 
because they are evidence that there is corruption, there is 
some good news embedded in the fact that courts are now going 
after the most powerful people in these countries. They are 
standing trial. They are being convicted. The system is 
working.
    So it proves that institutions and laws are functioning, 
and that is a good sign when you see that. So even though there 
is bad news that there is corruption and the instability that 
comes with it, the good news is that the processes and the 
institutions seem to be working and gaining momentum in at 
least certain parts of the region.
    Is that a fair way to assess it?
    Mr. Olson. Thank you, Senator. Yes. I mean, I think you are 
absolutely right. It is good news that prosecutions are taking 
place.
    Look it, corruption has been a problem in Latin America for 
decades, for a long time. It is not new. What is new is people 
holding high-ranking authorities accountable.
    If you look at impunity rates, the rates at which people 
are prosecuted in countries like Mexico, it is well over 95 
percent. So that means people are not being prosecuted, and 
what we need is that level of prosecution, independence of 
prosecutors, to go after the high-level people.
    Now, I will just add one small thing. Where we have seen 
success, such as in Guatemala, there has been a really strong 
pushback from the elite and the powerful and I would say 
probably corrupt in that country against these very 
institutions, against the attorney general, against the 
attorney general of Honduras.
    The Honduran attorney general was attacked again last night 
publicly by people who say he is not doing a good job. He is 
trying to hold people accountable.
    This is going to be a difficult, long-term process, and we 
need to support those prosecutors and judges who are being 
independent and taking this on in a very dangerous situation.
    Senator Rubio. Did you want to add anything?
    Mr. Farnsworth. I agree.
    Senator Rubio. The second question I want to ask you about 
is this situation that is developing in Venezuela with this so-
called election. My view, and I am pretty confident that I am 
correct about this, is that Maduro is trying to follow a 
pattern that we see Putin pull off in Russia, and others in 
different parts of the world, where you conduct this election, 
you win it, you are pretty sure you are going to win it, and 
this somehow gives you this air of legitimacy, but he needs 
there to be enough turnout to do it.
    Part of it is that he thinks it will be a reset button. It 
kind of resets everything and allows him to restart, perhaps 
taking away U.S. sanctions and the like, and some of the 
regional sanctions. But the other part internally is it allows 
him to go to the elites that have doubts about him, and 
``elites'' meaning the people who are still benefiting from him 
being in power, but who are starting to wonder if maybe one of 
them shouldn't be the person there, because maybe they can make 
this model a little less broken, and show them that his 
political party is able to gin up, mobilize people to go out 
and vote, et cetera.
    He is willing to undertake this election and was almost 
begging for an opponent and wanted an opponent because I 
believe he knows he can control the outcome. He knows that 
through the distribution of food, he can reward people who vote 
for him and punish those who do not. Ultimately, their control 
of the electoral oversight body allows them to change results 
if they needed to in order to win, and all that sort of thing.
    The counterargument from some in the opposition is that he 
could steal a close election, but for him to try to steal a 
blowout in which he loses would be much harder, and a lot of 
them are calling for activism. I think one of the things Maduro 
is counting on is that the Venezuelan people like to vote.
    So what views do you have on that? Do they participate, not 
participate? It is a tough issue for someone living there. We 
can see it for what it is. It is a fraud, and it is why none of 
the international organisms will go in and supervise it. But 
what is your view on whether or not the opposition there, or 
some elements of opposition who participate or not in this 
election, versus abstaining from it as a sign of how fraudulent 
and fake it is?
    Mr. Farnsworth. Mr. Chairman, that is a really difficult 
question.
    I think, first, I would suggest that those who choose to 
vote in Venezuela and exercise their franchise, I think we 
cannot criticize them for doing that, particularly if their 
livelihood depends on voting, for example, their access to 
food, medicine, their job, as you have indicated. So I think 
that is exactly right.
    One of the things that this government in Venezuela has 
done very, very well is to divide the opposition, is to set the 
opposition against each other, has been to jail leading 
opposition figures, not allowing them to contest elections, 
prosecuting others, trying to really use the tools of the state 
in a very politicized way to undermine the opposition.
    This is a perfect example. It is no coincidence, I believe, 
that the election date was changed to May 20, Cuban 
Independence Day. I think that there is a real effort not only 
to get out the Chavista vote--and there is a core group of 
supporters in Venezuela that will turn out and will support 
President Maduro no matter what.
    The question is, if a plurality or a large number of others 
turn out to vote, can he claim legitimacy from the result? I 
think, from the international community perspective, I think, 
by definition, he cannot. It is not a legitimate vote. Every 
indicator would be that this cannot be a free and fair election 
under existing circumstances for some of the reasons that you 
mentioned, and there are others as well.
    So whatever the individual decision of Venezuelans to vote 
I think is probably appropriate based on their individual 
circumstances. But as we look at it from outside, no matter 
what happens, this is going to be a vote that is fraudulent, 
that is not free and fair. And I think, in advance, the Summit 
of the Americas leaders who are meeting this week can and 
probably should have something very direct to say about that.
    Senator Rubio. Senator Cardin.
    Senator Cardin. Thank you both for your testimony.
    I have been involved in some of the preparations for 
summits within the OSCE, the annual ministerial meetings within 
the OSCE. And I know that, without a lot of prep work before 
the meetings take place, you are not going to achieve the type 
of consensus that is required at these meetings.
    Can you just share with us whether you believe that prep 
work has been done for a meaningful result in regard to 
fighting corruption?
    Mr. Olson. I mean, there have been a lot of meetings. There 
always are meetings. I do not think that should be the 
measuring stick by which we judge this.
    In my opinion, there is a lot more that could have been 
accomplished. But as my friend Eric has said, sometimes these 
are consensus-based meetings, so it is difficult. There is not 
consensus in the region.
    Obviously, in general, everybody is opposed to corruption, 
but how one goes about it--is there a commitment to independent 
judiciaries and independent prosecutors? I would say there is 
not.
    Senator Cardin. So that is unlikely to come out of the 
summit?
    Mr. Olson. I don't think so. I think what you will have--I 
am not saying they are going to be completely useless, but 
general kind of statements that say the right things. But it 
really requires political will of independent countries to 
create independent judicial institutions.
    Senator Cardin. It also requires leadership. And America, 
the U.S., has always been a dominant player in every regional 
organization that we have belonged to.
    Mr. Farnsworth, has the United States prepped this summit 
to a point where we can get a useful result?
    Mr. Farnsworth. Thank you, Mr. Ranking Member.
    It is difficult in some way to have meaningful preparations 
for meetings when you do not have people in place, for example, 
at the State Department or in other government agencies. The 
people who are there are doing really important work, 
meaningful work, on behalf of the American people, but there is 
a reality in the context of government officials to be able to 
conduct those very important negotiations.
    I would say that the OAS, the IDB, two hemispheric 
institutions, have run very professional processes up to the 
Lima summit. They have tried to forge consensus on some very 
difficult issues. But you are exactly right. When you actually 
get to the table with the leaders themselves--and I have been a 
part of the Summit of the Americas process, again, going back 
to 1994--the most precooked agreements at the end of the day 
may have little relevance to what the leaders themselves 
actually decide to do.
    There is a second element to this as well. It is not just 
what they actually agree in the meeting. It is what they 
actually meaningfully implement coming out of the meetings. 
There is a review process that the OAS runs, a summit 
implementation review group. It is very well-intentioned.
    But you have to have the leaders of the individual 
countries say, ``Not only did I commit to doing that among my 
peers, but I am also committed to doing that and implementing 
the agenda for the benefit of my people,'' and it may cost some 
politically. I think that is always the complication.
    Senator Cardin. Mr. Olson, you raised a very good point 
about having a point person on rule of law. I thought we had 
that person. I thought that was the Assistant Secretary for 
Democracy, Human Rights, and Labor. The State Department should 
take the lead on this. Those are the values of our country.
    Mr. Olson. Sure. I believe that that leadership should come 
from the State Department, but it has to be someone at enough 
of a level, senior enough, that would also bring together the 
other agencies of government. The Department of Justice plays a 
role in this. Other elements of the U.S. Government even within 
the State Department----
    Senator Cardin. Are you saying that that position, which is 
currently unfilled, but that position is not a high enough 
level?
    Mr. Olson. In my opinion, no, it is not. It does not have 
the ability to bring about discipline across multiple U.S. 
Government agencies and even offices within the State 
Department to ensure that there is a consistent policy 
implementation on rule of law. No, it is not enough.
    Senator Cardin. I would suggest that the model that has 
been the most successful to date has been the trafficking model 
that we have used where we do have a point person in the State 
Department responsible for trafficking. It has a strong 
congressional support. That person does have influence in other 
agencies. And there are now standards that we judge with the 
Trafficking in Persons Report.
    This committee has passed out legislation on corruption--it 
is pending on the floor the Senate--that would start a process 
similar to trafficking on judging every country in the world, 
including the United States, on its commitments to fight 
corruption. Those at the lowest tiers, there would be 
expectations in our bilateral relations that progress would be 
made or there are claw backs of funds in regard to U.S. aid.
    But you are correct. That relies on international 
standards, on judgment as to corruption, rather than a self-
determination or a consensus determination among other 
countries, which does not exist today.
    So the last point, and then a quick response, impunity in 
our hemisphere is off the charts. I mean, we have countries 
that have made tremendous efforts to try to deal with impunity, 
and you point out they are still in the 90 percentiles, which 
is unbelievable, that we can have democracies that have 
impunity rates this high.
    The two independent commissions that you refer to, one in 
Honduras and the other in Guatemala, was a major achievement to 
get outside, to give up autonomy of a country. That is a tough 
thing to do. And yet, the progress, which has been steady, has 
been slow.
    Mr. Olson. Yes. I think that, overall, the picture is very 
discouraging. But I will point out that with two successive, 
strong attorneys general in Guatemala and the support of CICIG, 
the impunity rate in Guatemala is actually in the area of 60 
percent to 70 percent, which may not sound great to us, but 
compared to 95 percent in Honduras or in Mexico, it is a sign 
of real achievement.
    That is what I mean by having a clear, integrated policy 
that focuses on things that actually work. I think we have a 
model in Guatemala.
    Look it, people are trying to erode that, undermine it, 
accuse them of all kinds of things. But it is being successful, 
and we can support those kinds of efforts not only in Guatemala 
but in Honduras and other places.
    Senator Cardin. Just one final point. Which model do you 
think is best of the two, Guatemala and Honduras?
    Mr. Olson. That is a Solomonic question here.
    Senator Cardin. They were controversial because of the ways 
they were set up originally.
    Mr. Olson. Yes. I think that they both have real potential.
    The advantage that the Guatemalan process has is that they 
can initiate their own investigations, the U.N. body can. 
Honduras cannot, so it is a little less independent. But it has 
the advantage of working only with a special commission within 
the prosecutor's office. And in some ways, it is better, 
because it is strengthening the prosecutor's office.
    I think that is happening in Guatemala, but I think 
Honduras, it has been around for just over 2 years, and it is 
really starting to take hold. That is why people are reacting. 
The Congress is passing laws. People are attacking the attorney 
general because they are beginning to be successful. That is 
what we have to be vigilant about, that we continue to support 
those efforts.
    Senator Cardin. Thank you.
    Senator Rubio. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here.
    Mr. Olson, I want to better understand, in your testimony, 
you talk about how there is no unified rule of law policy, and 
this sort of gets to what Senator Cardin was asking you about. 
Are you talking about that in the context of your discussion 
with Senator Cardin, that we do not have a high enough official 
making the case and that it is not integrated throughout the 
government? Or is it that we have not carefully defined and 
integrated what rule of law policy should be with respect to 
other countries?
    Mr. Olson. I think the latter point is really the central 
one. We do not have a clear and unified view of what rule of 
law promotion is across the U.S. Government. I think in 
addition to having a unified view, it would be important that 
there be a senior official driving that agenda.
    But the point is that, if you go to the Justice Department, 
they may say it is one thing. If you go to USAID, it may be 
another thing. You go to the State Department or INL, it will 
be another thing.
    They are all fine and valid, but when you have different 
approaches to rule of law, the risk of contradiction, 
undermining the U.S. Government, really sets back this agenda. 
And it is global. I am not just talking here about the 
Americas.
    Senator Shaheen. Right. So your suggestion that Congress 
really needs to take a long look at this and come up with new 
legislation is your view of one way to address that.
    Mr. Olson. Let me say it this way. I think this would be an 
ideal venue for some real authorizing legislation to push this 
agenda in the U.S. Government.
    Senator Shaheen. Well, I am sure the chair and ranking 
member are listening to that, and I certainly agree with that. 
I think that would be very important.
    I want to ask you, Mr. Farnsworth, because in your 
testimony, you point out that Venezuela is working with Russia 
to look at Venezuela as a beachhead in the Americas to do some 
of the things they have been doing across Europe and the United 
States--manipulating information and hacking, cyber hacking, 
all of the things that we have seen here.
    What do you think we should be doing to address that? And 
how widespread do you think that is throughout the Americas?
    Mr. Farnsworth. Thank you for the question. It is, by 
definition, difficult to get our arms around this, at least in 
an unclassified atmosphere, in which we clearly are. But 
reports indicate that the cooperation is growing.
    There are specific instances, for example, the Catalan 
independence referendum in Spain where Russia was clearly 
identified as meddling, but much of the Spanish-language 
traffic, both in terms of news reports that were colored or 
presented in a certain way, or even specific hacking out of the 
public eye, was being channeled through Venezuela.
    Some of this is speculation, but there is a very clear 
indication of interest within Venezuela and also coming out of 
Russia in terms of the elections in some of the countries that 
face elections this year in the region, particularly Colombia 
and Mexico, and perhaps others as well.
    The reason this is so critically important to the United 
States is because those are two of our very closest allies in 
the Western Hemisphere. They are strong democracies. The United 
States, on a bipartisan basis, has been a strong supporter. We 
have pushed a cooperation agenda on the security side, on the 
economic side, on the political side.
    And to have people, as Eric Olson was commenting, the 
public beginning to question democracy as the best form of 
government is a real strategic setback for the United States 
and the Western Hemisphere. But even more to the point, to the 
extent people may be elected in those countries or others who 
are taking an anti-U.S. viewpoint, taking a more skeptical view 
of cooperation with the United States, that would also be a 
real setback for U.S. efforts in the Western Hemisphere, in my 
view.
    So at some level, my belief is that Russia does not really 
care who is elected in Colombia or Mexico or Brazil or 
Paraguay. What they care about is disruption. What they care 
about is complicating the U.S. effort in the Western 
Hemisphere. And if, through some of their efforts, they can 
lead to the election of somebody who is overtly anti-American, 
so much the better, from their perspective.
    Venezuela has proven to be a very receptive and willing 
ally in this effort for several reasons, not the least of which 
is the government's virulent anti-American posture itself, but 
also because Venezuela is bankrupt. It desperately needs 
financial support from anybody who will give it to them. That 
has come not just in terms of oil sales to the United States 
but also support from China and support now from Russia as 
well.
    So this seems to be a growing problem. Targets of 
opportunity are very clear this year in the Western Hemisphere 
and perhaps going forward.
    It is something that even the former Secretary of State Rex 
Tillerson mentioned before he traveled to Latin America in 
early February. He clearly said, before he left for Mexico, 
that, in the Mexican context, people should be taking a look at 
what Russia might be doing. He did not further identify that, 
but, based on my experience as a former State Department and 
administration official from a number of years ago, Secretaries 
of State generally do not say things like that unless there is 
a particular reason to do so.
    Senator Shaheen. So how hard is it to address that kind of 
challenge when we have a President here in the United States in 
the White House who has refused to acknowledge Russian 
interference in elections in the United States and really 
throughout the world?
    Mr. Farnsworth. I may not be the best person to ask that 
very difficult question. It is a relevant question.
    In the Latin American, Western Hemisphere context, I think 
exposure of some of these activities so that people can 
actually have an understanding of what is going on and clearly 
be able to resist that I think is the first step. That requires 
intelligence-sharing. It requires cooperation at the government 
level. It also requires a free and independent press, which we 
do not have been Venezuela, and other institutions of democracy 
that are so critical for the health of the hemisphere.
    Senator Shaheen. Well, I would suggest that it may even be 
harder than that because, as I travel around in my State of New 
Hampshire, I run into people on a regular basis who do not 
recognize or think that there is an actual attempt to interfere 
in the United States elections and in elections in other 
countries, and that despite our rule of law, our free press, 
the other institutions that we have here.
    So I think this is an effort that requires everyone in 
democracies, in the international community, in the free world, 
to point out the threat that is posed to all of us. And I hope 
that we are going to see some action in the United States and 
our own leadership to address this at some point.
    I am out of time, Mr. Chairman.
    Senator Rubio. Senator Kaine is going to go, but I want to 
make sure I do not forget to get back to the point you just 
raised, because I think it is at the heart of what is happening 
in this region and all over the world.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to our witnesses. I want to ask questions about 
Honduras.
    The last months have had a lot of very, very serious 
problems, presidential elections in the fall that were marred 
by significant irregularities, significant enough that the OAS 
eventually weighed in and said that they thought that there 
needed to be a rerun of the elections. The U.S. sort of 
accepted the electoral result anyway when the OAS thought that 
they were so compromised they needed a do-over.
    In late January, the AP documented that the newly sworn-in 
national director of the police and two top officials had all 
participated in moving at least a ton of cocaine, and then 
intervening in an arrest order to protect the shipment. Then in 
the middle of February, the head of the MACCIH, the OAS sort of 
created anticorruption and impunity effort in Honduras, the 
head of MACCIH resigned in the face of what he termed rising 
hostility from the Honduran Government in carrying out its 
work.
    Let's talk about what we should be doing to promote the 
restart of MACCIH or some verified anticorruption effort in 
Honduras. What advice would you have for us?
    Mr. Olson. Thank you, Senator Kaine. And I want to just 
thank you for your interest in Honduras. I was a missionary in 
Honduras for a couple years as well and have spent over 30 
years following and going back there regularly, focused on a 
lot of these issues.
    Senator Kaine. I knew you were our Honduras expert, but I 
did not realize you had started as a missionary there.
    Mr. Olson. Thank you. I appreciate that. I love the whole 
region, but Honduras has a special place in my heart.
    Listen, yes, I think Honduras faces some really unique 
challenges right now, and it is vitally important that the 
United States Government weigh in, speak out loudly on all of 
these rule of law issues.
    The MACCIH is under attack. People are challenging its 
constitutionality on bogus terms. Congress is passing laws to 
protect itself. The attorney general is under assault.
    He texted me last night from a trip. He is in Holland. He 
says people are challenging his ability to open up this special 
investigation unit that has held the former First Lady 
accountable. So he is under attack by Congress.
    Everything is at play right now in Honduras around these 
issues. So it is vitally, vitally important for the U.S. 
Congress, the U.S. administration, to speak out, to say this is 
not a partisan issue, this is not a left-right issue. This is 
about the rule of law, which is at the very core of our values 
and our principles as a government. And I think it is really 
important.
    We, sadly, right now, do not have an Ambassador in 
Honduras. The people that are in our Embassy are doing a 
terrific job, but we need an Ambassador at that level to be an 
outspoken advocate for these issues.
    Senator Kaine. Do you share the view of the guy who stepped 
down as the head of MACCIH that it was government pressure even 
directly from the President, with the tone set from the 
President of Honduras, that is getting in his way?
    Mr. Olson. I think it was a combination of both. I know 
Juan Jimenez very well. We are still in touch. He is back in 
Lima now where he lives.
    But I think it was pressure from the government, pressure 
from Congress, the Honduran Congress, but also a breakdown in 
confidence in his leadership from Secretary General Almagro. I 
have spoken directly with Secretary General Almagro about this.
    It is unfortunate, but it really has put the MACCIH in a 
weakened spot. They are looking at somebody to replace him with 
soon. I hope any minute now, frankly.
    Senator Kaine. I hope they may pay attention to a hearing 
like this. It would sure send a good sign if the appointment of 
a replacement is somebody with real gravitas, whose appointment 
would send a message that, yes, this is not an effort that is 
going away. If anything, we are going to take it even more 
seriously now.
    Mr. Olson. Knowing how Hondurans view your role and your 
work, that kind of message would be absolutely essential from 
this entire committee, frankly. But people need to speak out at 
these critical moments to say the U.S. is standing behind the 
rule of law, human rights, good governance. These are values in 
the Republican Party, in the Democratic Party. This is part of 
what we are for. I think our Embassy personnel could really use 
that kind of support right now.
    Senator Kaine. Thank you.
    Thanks, Mr. Chairman.
    Senator Rubio. I think there is this broader narrative that 
this sort of reveals, when we talk about corruption and the 
decline of democracy. If you just look at the world and the 
sort of five flashpoints--China, Russia, North Korea, Iran, 
radical jihadists--the one thing they all have in common is 
authoritarianism in some way, shape, or form. Obviously, China 
is an authoritarian society. Russia, the same. North Korea is a 
bizarre place. Iran is authoritarian. And radical jihadism is, 
obviously, not a democratic process, but oftentimes is even 
created by authoritarianism, because repressive governments 
that do not allow people opportunities for upward mobility and 
the like create a ready population to seek membership in a 
group that makes them feel influential and powerful in society.
    So we still analyze so much of foreign policy in the 21st 
century with the lens of the 20th century about the Cold War 
and the like, where there was an ideological dispute between 
the United States and the spread of communism. It was 
authoritarian, but for the purpose of advancing communism. This 
is authoritarianism for the purpose of furthering something 
else, primarily control, the projection of strength and order.
    So the Cold War ends in 1989 through 1991, and then 
everybody says it is the end of history, right? Everyone is 
going to become a democracy. Markets are going to solve all our 
economic problems. And we took that for granted for 15 or 20 
years. We just thought, if we open up to China economically, 
they are going to become more like us, and the same with 
Russia. Well, it did not necessarily work out that way.
    What we have seen as well is that these economic changes at 
the global stage disrupted people's lives tremendously. It 
displaced people economically. You add to that automation and 
the like.
    And so what happens in these societies that feel a lack of 
order and a lack of stability, and tremendous insecurity? You 
become vulnerable for the authoritarian figure that stands up 
and says, ``I am going to restore order. I am going to make 
things right again. I am going to make us a more powerful 
country,'' and the like.
    It is certainly critical to Putin's argument. And it 
explains Russian interference, because as part of that 
authoritarian argument, they point to the U.S., the beacon of 
democracy, and say, ``Look at these guys. They are at each 
other's throat. The elections are illegitimate.'' I am 
convinced that that was not just a goal of 2016. I think it 
will be the goal from here on out, to disrupt elections and 
create doubt about whether they are legitimate.
    I mean, I said this in the open hearing at the Intel 
Committee. Imagine if you are able to go in, change people's 
voter registration so when they go vote on Election Day, they 
tell them you are not registered to vote. You do that to enough 
people using analytics to do it to one party 
disproportionately, and enough of that goes on in this 
environment, and you are going to have on election night people 
out there saying this was a fraudulent election.
    You have undermined American democracy, you have undermined 
the liberal world order, in terms of democracy. That explains a 
lot of what they are doing there, and it explains part of what 
is happening in this hemisphere as well.
    We have a lot of these countries with rampant corruption, 
rampant criminality. Life is so bad that people are willing 
then to take some of the most dangerous journeys imaginable to 
escape and try to come to the United States, and you've created 
the territory and the environment for strong-men and -women to 
stand up and say, ``I am going to restore order with a firm 
hand.''
    So look how this region is divided. On one side, Bolivia, 
Cuba, Venezuela, Nicaragua. Ecuador seems to be migrating away 
from that model somewhat, and that is good news. And then there 
is everybody else to varying degrees.
    So as much as anything else, what is happening in this 
Western Hemisphere is an extension of what is happening 
globally, and that is a debate between those of us who believe 
in the democratic order even though sometimes it elects people 
we do not agree with and leaders in other countries we do not 
agree with, and those who seek to spread their model of 
authoritarianism as an acceptable model for the 21st century.
    And it is, by the way, a reminder of why our leaders, and I 
mean including the President, need to be very careful about 
complimenting authoritarian leaders even though they happen to 
be our allies in a particular instance, because it demoralizes 
the democratic order.
    And I am not here to tell you that every country in the 
world--that Syria can become New Zealand overnight. I am here 
to say, though, that I think it is important for us to always 
try to promote steps toward a democratic order because 
democratic countries have proven to be less likely to, for 
example, start wars unnecessarily, invade their neighbors 
unnecessarily, and the like.
    So I guess my question is, isn't what we are seeing in this 
hemisphere just part of the broader global trend in this sort 
of ongoing 21st century battle between authoritarianism on one 
side, the argument that authoritarianism is a valid and 
legitimate and perhaps a better way of governing--but disguised 
as a democracy; they have these elections that they pretend are 
real--versus sort of stale commitment to democracy in the 
countries that have taken it for granted, that basically think 
that, once you have a democracy, it self-perpetuates and it 
does not need to be fed and defended in each generation and 
protected?
    Mr. Farnsworth. Mr. Chairman, if I can jump in there, I 
think the short answer is yes. Latin America and the Western 
Hemisphere is part of a broader global shift that we are seeing 
underway.
    One of my favorite quotes, I believe it was when Ronald 
Reagan spoke to the British Parliament in 1982. He said that, 
in the garden of democracy, democracy is not a fragile flower, 
but it does require tending. Just as you laid out, after the 
Cold War, we assumed that elections meant democracy in Latin 
America, and we collectively forgot, in my view, to tend to the 
garden and deal with these very real issues we have been 
talking about, to the point where they have now become quite 
difficult.
    The truth of the matter is, they provide a permissive 
environment for those outside of the region who wish to meddle 
the ability to do so. That is precisely what we are seeing with 
new tools, new interests, new opportunities to do that, to try 
to undermine democracy throughout the region. I think that is 
exactly right.
    The National Endowment for Democracy, I think, has done 
some very important work on the concept of sharp power, which 
is the use of nonmilitary power to promote a certain vision 
globally. Both Russia and China, and some other countries, are 
using that very effectively, in terms of the pursuit and the 
promotion of their own interests.
    I have been an advocate for a long time not to try to say 
to other countries around the world, ``You have no business in 
Latin America. You cannot come here. This is not for you.'' I 
mean, Latin America is part of the global environment. That is 
appropriate. Here we are. Latin America can trade with anybody 
that they want, subject to international law, et cetera, et 
cetera.
    But where I think the vacuum has been created is in the 
U.S. engagement with the region. I mean, this is a huge 
opportunity to contend for the region, which I think 
collectively and over a number of years, we just have missed. 
And whether it is walking away from the Trans-Pacific 
Partnership, whether it is calling into question essentially 
all of our formal trading arrangements in the Western 
Hemisphere starting with NAFTA but perhaps with others, whether 
it is presenting a vision that shows the United States to be 
less welcoming to our Latin American and Caribbean of friends 
than we have traditionally been, this is something that 
resonates in the Western Hemisphere quite loudly.
    So it plays into a narrative that Russia or China or 
somebody else can say, ``Well, the United States is not 
interested in you. They do not care about you. We do, and we 
want to trade with you, and we want to be your friends.'' And 
if I am a Latin American, and I am seized with that choice, it 
is really no choice at all. I mean, the United States may be 
the preferred partner, but if China, for example, is the only 
partner, there is no choice.
    That is, I think, what confronts the United States as we go 
to the Summit of the Americas. We need to show the hemisphere 
that we are an engaged partner not just based on our own 
interests, but we are partners for the region to help promote 
their interests as well.
    If I can be a little bit flip, we want to help make the 
Americas great again. We want to promote a regional identity 
that the United States is very much a part of, hopefully in a 
leadership role in, but recognizing for precisely the reasons 
you just laid out, Mr. Chairman, this is not an isolated 
hemisphere. This is not a region that is just over here and 
everybody else is conducting their affairs here. This is part 
of the global community. And I think it is time for the United 
States not just to recognize that but to engage with the region 
on that basis.
    I think we have a lot to add. I think we have a lot to 
contribute. But we have to want to be able to do that.
    If I can make a very quick point, if you will indulge me on 
Senator Kaine's I think important question on Honduras, the 
point that has not yet been raised in this hearing, 
particularly in the context of Central America, I think it is 
really an important one, it is the role of the private sector.
    The private sector needs to be a voice for democracy. The 
private sector needs to stand up and loudly reject corruption, 
whether it is in Honduras, whether it is in Guatemala, whether 
it is across the region. This is something that I think would 
make a meaningful contribution to our collective efforts in the 
Western Hemisphere.
    The final thing I would say about that, so that Eric Olson 
does not have all the fun here, my mother was also a missionary 
in Honduras.
    [Laughter.]
    Senator Rubio. The question you said about the private 
sector, are you meaning U.S. companies? Because by law----
    Mr. Farnsworth. That is a very good clarification. What I 
am referring to specifically in this instance is the local 
companies, the indigenous companies or companies that are based 
in those countries.
    U.S. companies are subject to FCPA, all the requirements of 
U.S. law. And those that do not abide by them are subject to 
U.S. law, et cetera, et cetera. That is appropriate.
    But Eric Olson is talking about some of the resistance, 
whether it is CICIG or MACCIH, that they are getting from their 
domestic constituencies. That is not U.S. companies pushing 
back.
    The private sector flourishes when the business climate is 
open and transparent and fair, the rules of game are known, and 
there is a rule of law that can be implemented, and people know 
the rules.
    Senator Rubio. A side note I want to make is, within the 
context of everything you just outlined, and an economic 
culture and environment where corruption is at a minimum 
accepted and maybe even perhaps encouraged in some places, that 
is where we get a lot of complaints from American companies 
seeking to do work in the region. And, obviously, they cannot, 
under our law, participate in that. But then they often talk 
about Chinese firms that come in and basically flat out bribe 
their way into contracts that then, if they are big enough, 
give them significant leverage over those countries' 
geopolitical decisions at international forums. That is a huge 
issue that bears watching in the years to come.
    Mr. Farnsworth. I agree with that.
    Senator Cardin. Mr. Chairman, I really do think you have 
brought up a subject in our own hemisphere which is global, 
your point about autocratic countries where leaders are very 
much against democratic institutions being able to counter the 
arguments of democracy effectively with their own population. 
And Russia is the prime candidate here.
    It is interesting when you talk about the economics. 
Russia's economy is smaller than Italy's economy, smaller than 
South Korea's economy. Yet, they try to dominate on the world 
stage in regard to a campaign against democratic countries.
    They use an asymmetric arsenal, which includes propaganda, 
lying, cyberattacks, in order to convince their population 
initially but then the broader constituency that their form of 
corrupt government protects human rights of their citizens 
better than democratic countries do, their system of government 
is a rule of law that is more predictable for their people than 
a democratic country's rule of law, or that their type of 
system's economy can perform better for the overall population 
than a democratic system for economic opportunity.
    That message is carrying. If we think that isn't working, 
it has worked. They have brought down democratic institutions. 
And they use other messages, including a nationalist message of 
pride, et cetera, which is now coming into our hemisphere. 
There is no question about it.
    But the common theme for success is corruption. That is 
what fuels it. Corruption fuels this regime. They cannot exist 
without having the ability to use the means of corruption.
    I think our challenge, and I think you pointed it out 
pretty clearly, is that we need to develop international 
standards that are recognized to fight corruption. Everybody is 
against corruption. So what does that mean?
    Transparency is very important, and we need to have 
standards, enforceable standards, on transparency, so that you 
can see what is going on. You need to have independent 
prosecutors. We know that. But they have to be financed, and 
they have to have the laws in place in order to be able to 
carry out their work. That is essential.
    You need anti-bribery statutes. You need public 
procurement, so that you know exactly how the public monies are 
being spent, laws and reforms.
    You cannot have impunity for public officials and the work 
that they do. They have to be held accountable, if they are 
corrupt. You cannot use the position to shield yourself from 
prosecution.
    They are all, I think, kind of standard things that must be 
included.
    I have worked in our hemisphere. I have also worked in 
Europe quite a bit with the OSCE as a member of the Helsinki 
Commission, the ranking Senate leader on the Helsinki 
Commission. I mention that for two reasons. There is a lot of 
similarity between OSCE and OAS in their charters on basic 
commitments to democracy. There are several differences in the 
OSCE.
    They have a much more intrusive budget, including missions 
that are much different than OAS. They also have a 
parliamentary assembly which gives parliamentary participation, 
which we do not have in the OAS.
    I appreciate the fact that this administration is reaching 
out to us in regard to the summit. That is good. They are 
trying to get our input. But we do not have a formal mechanism 
for our participation in the OAS as we do in the OSCE, which is 
given stronger, I would say, credibility and expectations at 
their meetings even though both are consensus organizations.
    So I guess my last point is, how do we strengthen America's 
role in our hemisphere? What can we do so that we can literally 
see the future of our hemisphere with democratic states?
    America is firmly set on democracy. I am not worried about 
that. But I do worry about what is happening in our own 
hemisphere and whether democracies will be weakened because of 
all the reasons we have talked about.
    How can we strengthen America's leadership? How can we in 
Congress, which has a very limited role in the OAS, improve our 
influence in this hemisphere other than by appropriating 
dollars on the foreign assistance side or by speaking out at 
hearings? What more can we do? And how can we strengthen the 
OAS as an institution so that its commitment to democracy is 
carried out in its policies in a more effective way?
    Mr. Olson. I will try to answer that in 60 seconds. It is a 
huge challenge, no doubt.
    I wanted to add one small thing. Not only Russia and 
external actors take advantage of the lack of rule of law, but 
so do criminal organizations. That is a priority for this 
administration, fighting transnational criminal organizations. 
I agree it is important. But it is not just about locking bad 
people up. It is also about building the capacity of the 
countries to hold people accountable, because they grow, they 
take root, they take over governments when there is no rule of 
law. And I think it is a huge priority.
    One, make it a bigger priority, as I said. It should be 
front and center in our relationship and our policy. Two, as 
Eric pointed out, and I think we agree, we have to have the 
leadership at the OAS. I understand there is a newly named or 
appointed permanent representative to the OAS. I think that is 
essential. We have not had that person there for the last 4 or 
5 years, somebody who will be a bully pulpit. But I also think 
our entire diplomatic corps needs to focus really strongly on 
these issues of rule of law, anticorruption, accountability, 
and press these issues at every step of the way.
    I think, for me, this is the future. This is what we have 
to focus on. There are short-term issues--obviously, criminal 
organizations, gangs, yes. But if we do not help rebuild the 
fabric of democracy that goes beyond elections, I think we are 
just going to continually deal with these issues, the 
strongmen, the strongwomen, that come along and take advantage 
of institutional and governance weakness, who corrupt the 
systems.
    That, to me, has to be a priority, and I would just 
encourage this committee and the two of you as bipartisan 
leaders to make that more central in what we push in our 
relations at the OAS, in the region, but also globally.
    Mr. Farnsworth. I, too, think it is a huge question, and it 
is an important one. It would probably take more time than we 
have, unfortunately. But a couple points, just to react, if I 
can, Mr. Cardin, to your very relevant comments.
    First, you have identified a fundamental difficulty with 
the OAS, and that is to say it is an executives' club, a club 
of national executives. And so where once the mission may have 
been different than it is now, now nations are allowed to use 
it, and they do use it, frankly, to protect themselves, as 
opposed to promote any sort of vision. So they block and tackle 
when there are efforts against Venezuela or other countries, 
because those are the members of the OAS. It is the Presidents 
themselves.
    That has been something that has been identified as 
something that needs to be looked at again in the context of 
the American Democratic Charter that was signed in Peru in 
2001.
    This has to be a broader effort. You have identified 
legislatures. I think that is entirely appropriate. How you 
bring that into an international body, I do not know. But I 
think it is a very important point.
    Just a couple other quick things.
    Number one is the power of example. The United States does 
have a very potent power of example. We have to recognize that. 
And people react to things that are said and done from the U.S. 
perspective in the Western Hemisphere. I think that is 
something that we need to add to our international toolkit, to 
understand that, when it comes to democracy promotion, people 
do not like to be lectured or tutored. They like to see what 
works in other countries and then maybe try to follow best 
practices.
    That is something that I think Russia has done very, very 
well in the context of trying to create in the public eye some 
sort of equivalency between the Russian system and democracy. 
``Well, if democracy is so messy, what is the big deal, right? 
We can't get justice here. Our economy is not doing well. 
People are corrupt. I might not even want to vote. Maybe the 
authoritarian system isn't so bad. At least I have a job. I 
know what the future holds,'' et cetera, et cetera.
    And if it is simply a matter of my country is not going to 
have an international voice to say on Tibet or Taiwan, well as 
an individual citizen in Latin America, what do I care about 
that?
    So people are making individual choices, and I think Russia 
and China in the Tibet and Taiwan example have found a 
particularly attractive vein to mine in the context of bringing 
moral equivalency globally to the idea that authoritarian 
systems and democracies are in some way equal.
    I completely reject that view, but it is one that is being 
effectively promoted. And I think we have to start from an 
understanding--it goes to Chairman Rubio's comments--we have to 
start from the basis that we are in a competition. There is a 
battle going on for hearts and minds and ideas. We are not 
competing in that, but it does not mean it is not going on. And 
if we are not competing, we are losing.
    So this is something I think we have to take very, very 
seriously, and we need to do a much better job not just 
understanding that but then working that into our overall 
approach not just in the Western Hemisphere, frankly, but 
global democracy promotion.
    We should not be afraid to stand for democracy. We should 
not be afraid to not just speak about it but resource efforts 
on it. My perception has been that has been lacking in some 
way, again, over the past several years.
    The last thing I would say is a very specific point. We 
have talked about some ways to improve the anticorruption 
effort in the hemisphere, some very good ideas that have 
already been mentioned. One that I do not think has been 
mentioned yet, we have talked about judicial independence. We 
have not talked about judicial training.
    The idea of corruption is a really difficult issue to get 
one's arms around. What is corruption? The whole idea of 
definitional issues is important. But if you have a different 
legal system than we do in the United States and you have 
different training and you have judges who may not have the 
same sensitivity to some of these issues, it is probably 
unrealistic to think that even the best laid out case is going 
to come before a judge and be ruled on in any meaningful way 
just in the routine course of events.
    So judicial training is something that I think has been 
identified over the years as something that we could do a lot 
more of and could be very beneficial in the context of trying 
not just to sensitize people to corruption but to actually do 
something about it.
    Senator Cardin. Let me thank both of our witnesses, and let 
me point out I agree with you completely that we need to 
counter what is happening by Russia and other countries that 
are against our way of governance.
    And we did that. Congress authorized funds last year to do 
that, and our appropriators appropriated funds last year to do 
that, and we are now trying to increase that capacity and our 
own ability to counter the propaganda being sent out primarily 
by Russia, but there are other countries.
    Senator Rubio. Just as we close, a couple points on this 
competition, the world has always been influenced by whatever 
the most powerful country in the world's model is. There is no 
doubt that the fact that the most powerful country in the world 
after World War II was an open economy, democratic nation had a 
huge influence on the way many nations developed.
    Now we are in this competition with this autocratic model 
that is making an argument. They point to our problems because 
we are an open society, so we broadcast the issues that we 
have, and we argue about them in front of the whole world and 
in front of each other, and they do not. Any bad news in China 
and any bad news in Russia is suppressed by state media that 
does not allow it to be reported. It is propaganda.
    So they point to our model and say, ``It is dysfunctional. 
It is broken. Look what we have.'' But they have another 
benefit, and that is they come at a very low price, at least in 
the frontend. They do not care about your human rights record. 
We will sell you stuff. We do not care what you do. We do not 
care what kind of government you have. We do not care if you 
are corrupt. We do not care how many innocent people you kill. 
These are not conditions. Ours comes with all sorts of strings. 
They would rather have our stuff.
    And I am for it. I am not arguing that we should remove 
those things. I am just telling you that is the presentation 
that is made.
    So oftentimes, you will see where nations in the region, 
for example, will make a military purchase of another country. 
They would rather have our things, but they are going to buy 
theirs because it does not come with the strings attached, and 
they actually would sell it to them while they would rather 
have ours.
    This is not an argument for lowering our standards. It is 
just one of the pitches that they use.
    But all being equal, they would rather have our technology. 
They also just would rather be closer to us. They are 
suspicious of Chinese intentions. They are suspicious of 
Russian intentions. And they would prefer to have a 
relationship with us. There are cultural links, geographic 
links, historical links, but they feel neglected. And I have 
heard that now over and over again for the better part of a 
decade. No matter who was in charge, they feel that the United 
States gives lip service to the Western Hemisphere but largely 
neglects it, and, therefore, kind of makes it vulnerable to 
this sort of activity.
    I am not critical. I am disappointed the President will not 
make it to Lima. I understand the Syria situation is very 
significant, and he is going to stay here and handle that. I am 
not criticizing that decision. I do find it, however, symbolic 
of the broader challenge we face in the region for the better 
part of a decade, and that is every time we say we are going to 
focus on the Western Hemisphere, something emerges in the 
Middle East or somewhere else that distracts our attention 
away. In this particular case, it has happened once again.
    Senator Cardin and I have a bill on war crimes 
accountability in Syria that we are hoping to get passed in the 
Senate, so it is a priority for us as well.
    But ultimately, the last point I will make is, the one good 
thing that has happened is, over the last year and a half, we 
have seen a regional cohesion among the large economies, the 
most important regional powers, on the issue of Venezuela. I do 
think the administration, whatever criticism people may have 
about them on some other issues, has handled that one well.
    They have been measured. They have been strategic. It has 
been slow and steady. They have targeted. They have taken their 
time in finding the right things to sanction. And they have 
done it in a way where it is not us telling the rest of the 
region what to do, but rather in partnership with them. And it 
is telling that these nations, Panama being the latest, have 
followed suit, as has the European Union and the Canadians.
    And I do think embedded in their approach toward Venezuela 
is a way forward on a host of other issues in the region where 
we are truly partners and see in Brazil, in Colombia, in 
Argentina, in Chile, in Peru, in Mexico force multipliers, 
nations who, as their capacity grows, their ability and their 
regional leadership could be an asset and already is in the 
furtherance of these principles that we care about.
    It is a region that we want it to be a source of good news, 
not bad news, a source of solutions, not problems. It really 
begins by capacitating these countries who are following these 
examples and helping them to the extent we can, often simply by 
engaging with them.
    I mean, Argentina does not need a lot of foreign aid. They 
want to buy stuff.
    Colombia is a good example. This is a nation that we have 
invested in significantly. They have real problems. We do not 
have time to get into them today on the peace deal and the 
like. But this is also a country that is helping Honduras by 
sending trainers there.
    So there is a lot here. Obviously, we could have dedicated 
a lot more time to this hearing, but I want to thank both of 
you for being a part of it and making it a priority to be here 
today.
    This committee, obviously, is focused on this, but I hope 
we can encourage more of our colleagues to get engaged in the 
Western Hemisphere matters.
    So, again, the record for this hearing will remain open for 
48 hours.
    Senator Rubio. I, again, thank you both for being here.
    With that, this hearing is adjourned.
    [Whereupon, at 11:27 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
